APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Community Visa

7.50%

to 13.75% when you open your account,

based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Student CU Visa
Balances to $249.99
F3

0.00%
F4

or Less

Introductory APR for a period of 48 billing cycles.

After that your APR will be
Balances of $250.00
F6

10.00%
F5

.

or Greater

10.00%
F7
Community Secured Visa

13.75%
F8

This APR will vary with the market based on the Prime Rate.
Cash Back Visa

12.99%
F9

or 15.99%
F10

when you open your account,

based on your creditworthiness.
Big Ticket
Purchases of $600.00
F11

0.00%
F12

or Greater

Introductory APR for a period of six (6) billing cycles.

After that your APR will be
Purchases of $599.99
F14

18.00%
F13

.

or Less

18.00%
F15
APR for Balance Transfers

Community Visa
0.00%
Introductory APR for a period of six billing cycles.
F16
After that your APR will be 7.50%
F17
to 13.75%
F18
, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Student CU Visa
Balances to $249.99
F19

or Less

0.00%
F20
Introductory APR for a period of 48 billing cycles.
After that your APR will be 10.00%
F21
.
Balances of $250.00
F22

or Greater

10.00%
F23
Community Secured Visa
13.75%
F24
This APR will vary with the market based on the Prime Rate.
©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DNCJF3 (MXC403 CCM003)-e

SEE NEXT PAGE for more important information about your account.

Cash Back Visa
0.00%
Introductory APR for a period of six billing cycles.
F25
After that your APR will be 12.99%
F26
creditworthiness.

APR for Cash Advances

or 15.99%
F27

, based on your

Big Ticket
18.00%
F28
Community Visa
7.50%
to 13.75%
F30
when you open your account, based on your
F29
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Student CU Visa
10.00%
F31
Community Secured Visa
13.75%
F32
This APR will vary with the market based on the Prime Rate.
Cash Back Visa
12.99%
F33
or 15.99%
F34
creditworthiness.

Penalty APR and When it Applies

when you open your account, based on your

Big Ticket
18.00%
F35
F36
18.00%
This APR may be applied to your account if you:
- Make a late payment
- Make a payment that is returned

How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Foreign Transaction Fee

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

How Long Will the Penalty APR Apply? If your APRs are increased
for these reasons, the Penalty APR will apply until you make at least six
minimum payments by the payment due date as shown in your monthly
statement. However, the Penalty APR may apply to new transactions
indefinitely.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

None
F37
1.00%
F38
0.80%
F39

of each multiple currency transaction in U.S. dollars
of each single currency transaction in U.S. dollars

Up to $25.00
F40
Up to $25.00
F41

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Loss of Introductory APR: We may end your Introductory APR if you are 60 days late in making a payment or make a
payment that is returned. With the loss of your Introductory APR, you APR will be a rate of 10.00%
F42
for the Student CU
Visa and 18.00%
F43
for the Big Ticket.
Application of Penalty APR: Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making
a payment or make a payment that is returned.
DNCJF3 (MXC403 CCM003)-e

Effective Date:
February 1, 2016
The information about the costs of the card described in this application is accurate as of F44
.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Statement Copy Fee
Document Copy Fee
Rush Fee
Card Replacement Fee

F45
or the amount of the required minimum payment, whichever
$25.00
is less, if you are 15 or more days late in making a payment.
F46
or the amount of the required minimum payment, whichever
$25.00
is less.
F47
$5.00
F48
$15.00
F49
$35.00
F50
$10.00

DNCJF3 (MXC403 CCM003)-e

